                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS                                      1
                                             CLOSEOUT MEMORANDUM                                                  !i
                                                                                                                  i
                                                                                                                  1
                                                                                                                   I

                                                                                                                   i

                                                                                                                   I
                                                                                                                       I
         The Office of Inspector General (OIG) received information that a university1 had transferred                 I




         that there was no system for tracking government owned equipment.

         Investigation disclosed that the University transferred several closed grant accounts to a single
         holding account in order to facilitate the conversion'to a new accounting system. The University
         failed to reconcile these residual grant funds in a timely manner.
                                                                                                                           !
         As a result of this investigation, the University returned $29,477.02 fiom its holding account to                 1
         the NSF. In addition, at OIG7srequest, the University self-disclosed to five other federa(                        I
                                                                                                                           i
         agencies a total of $33,388.02 of federal funds in its holding account.

         Regarding the allegation that there was no system for tracking government owned equipment,
                                                                                                                           1   I

         this investigation disclosed that the University did have a tracking system in place that met NSF,   I            !




                                                                                                                               I

         OMB, and the University's policies.
                                                                                                                               I


         In light of the fact that this matter was thoroughly investigated, the University returned                                1
         $29,477.02 to NSF and notified the other affected federal agencies, no hrther investigation is                            I

                                                                                                                               I
         Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
